           INSPECTOR GENERAL, DOD, OVERSIGHT
           OF THE ARMY AUDIT AGENCY AUDIT OF
         THE FY 2000 ARMY WORKING CAPITAL FUND
                  FINANCIAL STATEMENTS


Report No. D-2001-063               February 28, 2001




             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronym
AAA                   Army Audit Agency
                       Office of the Inspector General, DoD
Report No. D-2001-063                                               February 28, 2001
  (Project No. D2001FI-0035)

          Inspector General, DoD, Oversight of the Army Audit
           Agency Audit of the FY 2000 Army Working Capital
                       Fund Financial Statements

                               Executive Summary

Introduction. Public Law 101-576, the "Chief Financial Officers Act of 1990,"
November 15, 1990, as amended by Public Law 103-356, the "Federal Financial
Management Act of 1994," October 13, 1994, requires DoD to prepare annual audited
Army Working Capital Fund financial statements. Office of Management and Budget
Bulletin No. 01-02, "Audit Requirements for Federal Financial Statements,"
October 16, 2000, establishes the minimum requirements for audits of these financial
statements. This Bulletin requires the Inspector General, DoD, to express an opinion
on the DoD financial statements and to report on the adequacy of internal controls and
compliance with laws and regulations. We delegated the audit of the FY 2000
Department of the Army Working Capital Fund financial statements to the Army Audit
Agency.

Objectives. Our objectives were to oversee the Army Audit Agency audit of the
FY 2000 Department of the Army Working Capital Fund financial statements to verify
whether we can rely on their work and to determine whether the Defense Finance and
Accounting Service Indianapolis consistently and accurately compiled financial data
from field organizations and other sources for the FY 2000 Army Working Capital
Fund financial statements. This report focuses on the oversight objective. See
Appendix A for a discussion of the audit process.

Results. The Army Audit Agency was unable to express an opinion on the FY 2000
Army Working Capital Fund financial statements. We concur with the Army Audit
Agency disclaimer of opinion; our endorsement of that disclaimer is Exhibit 1.
Excerpts of the Army Audit Agency report is included as Exhibit 2 and provide the
reasons for the disclaimer of opinion and identify the material weaknesses and
reportable conditions associated with the internal controls and compliance with laws and
regulations. The complete Army Audit Agency report, "Army Working Capital Fund
Principal Financial Statements for Fiscal Year 2000: Summary Audit Report,"
February 9, 2001, can be accessed on the Internet at http://www.aaa.army.mil. The
FY 2000 Army Working Capital Fund Principal Financial Statements can be accessed
on the Internet at www.dtic.mil/comptroller.
Table of Contents

Executive Summary                                                        i

Appendixes
     A. Audit Process
         Scope and Methodology                                           1
         Prior Coverage                                                  2
     B. Report Distribution                                              3

Exhibits
     1. Inspector General, DoD, Endorsement Memorandum
     2. Excerpts from Army Audit Agency Report, "Army Working Capital
        Fund Principal Financial Statements for FY 2000: Summary Audit
        Report"
Appendix A. Audit Process

Scope and Methodology
    Audit Work Performed. To fulfill our responsibilities under Public
    Law 101-576, the "Chief Financial Officers Act of 1990," November 15, 1990,
    as amended by Public Law 103-356, the "Federal Financial Management Act of
    1994," October 13, 1994, and Office of Management and Budget Bulletin
    No. 01-02, "Audit Requirements for Federal Financial Statement," October 16,
    2000, we performed oversight of the independent audit conducted by the Army
    Audit Agency (AAA) of the FY 2000 Army Working Capital Fund financial
    statements. We reviewed the AAA audit approach and monitored audit progress
    at key points.

    Reviewing the AAA Audit Approach. We used the "Federal Financial
    Statement Audit Manual," January 1993, issued by the President's Council on
    Integrity and Efficiency, and the "Financial Audit Manual," December 12,
    1997, issued by the General Accounting Office, as criteria for reviewing the
    AAA audit approach. We reviewed the engagement letter, cycle
    memorandums, and audit programs. In addition, we participated in AAA
    conferences on the Army Working Capital Fund financial statements. The
    conferences covered the AAA planning and formulation of audit strategy and
    included presentations on issues that developed during the AAA work.

    Monitoring Audit Progress. Through the DoD Financial Statement Audit
    Executive Steering Committee, and an integrated line-item oversight effort, we
    provided a forum for a centrally managed exchange of guidance and
    information. We monitored the progress of the audit through site visits, reviews
    of key working papers of AAA audit results and conclusions, and attendance at
    meetings between AAA and audit client. We also reviewed and commented on
    audit reports issued by AAA, including the summary audit report, which
    included discussions of issues on internal controls and compliance with laws and
    regulations. In addition, we co-performed audit work with AAA to verify the
    adequacy of support for accounting entries made during the compilation of the
    financial statements.

    DoD-Wide Corporate-Level Government Performance and Results Act
    Coverage. In response to the Government Performance and Results Act, the
    Secretary of Defense annually establishes DoD-wide corporate-level goals,
    subordinate performance goals, and performance measures. This report pertains
    to achievement of the following corporate-level goal, subordinate performance
    goal, and performance measure:

           FY 2001 DoD Corporate-Level Goal 2: Prepare now for an uncertain
           future by pursuing a focused modernization effort that maintains U.S.
           qualitative superiority in key warfighting capabilities. Transform the
           force by exploiting the Revolution in Military Affairs, and reengineer the
           Department to achieve a 21st century infrastructure. (01-DoD-02)



                                        1
           FY 2001 Subordinate Performance Goal 2.5: Improve DoD financial
           and information management. (01-DoD-2.5)

           FY 2001 Performance Measure 2.5.2: Achieve unqualified opinions
                                       −DoD-2.5.2)
           on financial statements. (01−

    DoD Functional Area Reform Objectives and Goals. Most major DoD
    functional areas have also established performance improvement reform
    objectives and goals. This report pertains to achievement of the following
    functional area objective and goal.

           Financial Management Area. Objective: Strengthen internal controls.
           Goal: Improve compliance with the Federal Managers' Financial
           Integrity Act. (FM-5.3)

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the Defense Financial Management high-risk area.

    Audit Type, Period, and Standards. We performed this financial statement
    audit from October 12, 2000 through February 9, 2001, in accordance with
    auditing standards issued by the Comptroller General of the United States, as
    implemented by the Inspector General, DoD. We did not use
    computer-processed data to conduct our oversight of the AAA audit of the
    FY 2000 Army Working Capital Fund financial statements.

    Contacts During the Audit. We visited or contacted individuals and
    organizations in the DoD audit and accounting community. Further details are
    available on request.

Prior Coverage
    The General Accounting Office and the Inspector General, DoD, have
    conducted multiple reviews related to financial statement issues. General
    Accounting Office reports can be accessed on the Internet at
    http://www.gao.gov. Inspector General, DoD, reports can be accessed on the
    Internet at http://www.dodig.osd.mil.




                                        2
Appendix B. Report Distribution
Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organization
Director, Defense Finance and Accounting Service

Non-Defense Federal Organization
Office of Management and Budget
General Accounting Office

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform




                                           3
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member (Cont'd)
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                          4
Exhibit 1. Inspector General, DoD,
           Endorsement Memorandum
Exhibit 2. Excerpts from Army Audit
           Agency Report, "Army
           Working Capital Fund
           Principal Financial
           Statements for FY 2000:
           Summary Audit
           Report"
Audit Team Members

The Finance and Accounting Directorate, Office of the Assistant Inspector General for
Auditing, DoD, prepared this report. Personnel of the Office of the Inspector General,
DoD, who contributed to the report are listed below.

F. Jay Lane
Salvatore D. Guli
Richard B. Bird
Carmelo G. Ventimiglia
Gary S. Woodrum
Audrey M. Spear
Jeffrey D. Marshall
